No. ________
In the
Supreme Court of the United States
OCTOBER TERM, 2020

ANTHONY KEITH FREENEY,
Petitioner,
V.

UNITED STATES OF AMERICA
Respondent.

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS

AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
Texas Bar Card No. 02438900
Attorney for Petitioner

MOTION FOR LEAVE TO
PROCEED IN FORMA PAUPERIS
Pursuant to Rule 39 of the Supreme Court Rules and Title 18, United States
Code, Section 3006(d)(6), Petitioner asks leave to file the attached Petition for Writ
of Certiorari to the United States Supreme Court without prepayment of costs and to
proceed in forma pauperis.
Petitioner was represented by the undersigned counsel, appointed by the
Northern District of Texas pursuant to the Criminal Justice Act, on appeal to the
United States Court of Appeals for the Fifth Circuit.

Respectfully submitted,

/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney-At-Law
P.O. Box 765
Tyler, TX 75710
amyblalock@outlook.com
(903) 262-7520 (Tel)
(903) 307-5346 (Fax)
Texas Bar Card No. 02438900
Attorney for Petitioner

CERTIFICATE OF SERVICE
I hereby certify that on the 11th day of January, 2021, I served one (1) copy of
the foregoing Motion For Leave To Proceed In Forma Pauperis on the following
individuals by mail (certified mail return receipt requested) by depositing same,
enclosed in post paid, properly addressed wrapper, in a Post Office or official
depository, under the care and custody of the United States Postal Service, or by other
recognized means pursuant to the Rules of the Supreme Court of The United States
of America, Rule 29:
Solicitor General
U.S. Department of Justice
Washington, D.C. 20530

Joseph Andrew Magliolo and Leigha Amy Simonton
U.S. Attorney’s Office
Northern District of Texas
Dallas, Texas
ANTHONY KEITH FREENEY
USM #31366-177
FCI EL RENO
FEDERAL CORRECTIONAL INSTITUTION
P.O. BOX 1500
EL RENO, OK 73036

/s/ Amy R. Blalock
AMY R. BLALOCK
Attorney for Petitioner

